                                                                             Report No. DODIG-2014-113



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 17, 2014




                     Inappropriate Obligations
                     for the T700 Technical,
                     Engineering, and Logistical
                     Services and Supplies Contract




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                  Results in Brief
                                  Inappropriate Obligations for the T700 Technical,
                                  Engineering, and Logistical Services and Supplies Contract



September 17, 2014

Objective                                             Recommendations
We determined whether the Department                  The Commanding General, U.S. Army Contracting Command
of Defense effectively managed the T700               should require contracting officials to deobligate funds that have
Technical, Engineering, and Logistical Services       been inappropriately obligated for anticipated future work on
and Supplies contract. Specifically, we reviewed      the T700 Technical, Engineering, and Logistical Services and
the obligation of funds for the T700 engine           Supplies contract.
contract. This is the first report in a series of
two reports on the T700 engine and addresses          The Commanding General, U.S. Army Aviation and Missile Life
whether funds were obligated in accordance            Cycle Management Command should record funds for anticipated
with United States Code and DoD regulations.          future work in accordance with United States Code and DoD
                                                      regulations. Either:

Finding                                                  •	 U.S. Army Aviation and Missile Life Cycle Management
                                                            Command officials should complete and document an
U.S. Army Aviation and Missile Life Cycle
                                                            estimate based on a historical analysis of actual costs
Management Command and U.S. Army
                                                            expended for anticipated future work to support an
Contracting Command officials inappropriately
                                                            obligation of funds, or
obligated funds for work that is added to the
total value of the contract for anticipated              •	 In the absence of a best estimate based on a historical analysis,
future work.                                                U.S. Army Aviation and Missile Life Cycle Management
                                                            Command officials should only commit the funds.
This occurred because U.S. Army Aviation
and Missile Life Cycle Management Command
officials did not support their estimate with a
                                                      Management Comments and
historical analysis of actual costs for anticipated   Our Response
future work, as required by Federal and
                                                      We received comments from the Army in response to a draft
DoD procurement regulations, to determine
                                                      report. The U.S. Army Contracting Command will deobligate
whether an obligation should be recorded. As
                                                      funds for anticipated future work and the U.S. Army Aviation
a result, U.S. Army Aviation and Missile Life
                                                      and Missile Life Cycle Management Command performed a
Cycle Management Command and U.S. Army
                                                      historical analysis of the anticipated future work costs. Comments
Contracting Command officials inappropriately
                                                      addressed all specifics of the recommendations, and no further
obligated $6 million, and those funds were
                                                      comments are required.
not available for other higher priority Army
maintenance and repair needs.




Visit us at www.dodig.mil


                                                                           DODIG-2014-113 (Project No. D2014‑D000AT‑0120.000) │ i
           Recommendations Table
                                                                             Recommendations       No Additional
                                        Management                           Requiring Comment   Comments Required
             Commanding General, U.S. Army Contracting Command                                                   1
             Commanding General, U.S. Army Aviation and Missile Life Cycle                                       2
             Management Command




ii │ DODIG-2014-113 (Project No. D2014‑D000AT‑0120.000)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                               September 17, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
		 TECHNOLOGY, AND LOGISTICS
	              DIRECTOR, DEFENSE LOGISTICS AGENCY
	              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:	 Inappropriate Obligations for the T700 Technical, Engineering, and Logistical
	         Services and Supplies Contract (Report No. DODIG-2014-113)

We are providing this report for review and use. U.S. Army Aviation and Missile Life Cycle
Management Command and U.S. Army Contracting Command officials did not obligate $6 million
in accordance with Federal and DoD regulations for work that is added to the total value of the
contract for anticipated future work on the T700 Technical, Engineering, and Logistical Services
and Supplies contract. This is the first report in a series of two reports on the T700 engine.

We considered management comments on a draft of this report when preparing the final report.
Comments from the Army addressed all specifics of the recommendations and conformed to
the requirements of DoD Directive 7650.3; therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff.  Please direct questions to me at
(703) 604-9077.




	                                                Jacqueline L. Wicecarver
	                                                Assistant Inspector General
	                                                Acquisition, Parts, and Inventory




                                                                                           DODIG-2014-113 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________2

                  Finding. Inappropriate Obligation of Funds on the
                  T700 Engine Contract______________________________________________________________3
                  Funds for Anticipated Future Work Were Obligated Without a Specific
                     and Defined Need____________________________________________________________________________3
                  Estimate Used Without the Required Historical Analysis_____________________________________4
                  Conclusion________________________________________________________________________________________5
                  Recommendations, Management Comments, and Our Response____________________________5

                  Appendix
                  Scope and Methodology_________________________________________________________________________7
                  	   Use of Computer-Processed Data _________________________________________________________8
                  	   Prior Coverage _ _____________________________________________________________________________8

                  Management Comments
                  Department of the Army ________________________________________________________________________9

                  Acronyms and Abbreviations______________________________________________ 14




iv │ DODIG-2014-113
                                                                                         Introduction




Introduction
Objective
Our audit objective was to determine whether DoD effectively managed the T700
Technical, Engineering, and Logistical Services and Supplies (TELSS) contract. See the
Appendix for a discussion of the scope and methodology and prior audit coverage.
This is the first report in a series of two reports on the T700 engine and addresses
whether funds were obligated in accordance with U.S. Code and DoD regulations.


Background
General Electric (GE) designed, developed, and manufactured the T700 family of
engines and has been providing the engine to the Army since 1976.          The T700
engine is a military turboshaft engine that powers 21 types of rotary- and
fixed-wing aircraft including the UH-60 Blackhawk and AH-64 Apache helicopters.
According to GE Aviation, the T700 engine characteristics include reliability, safety,
and the ability to operate under adverse environmental conditions while requiring
minimal maintenance.


U.S. Army Contracting Command
The U.S. Army Contracting Command (ACC) is a major subordinate command to the
U.S. Army Materiel Command. The U.S. Army Materiel Command’s mission includes
the development of weapon systems, maintenance and distribution of spare parts,
and contracting services.   ACC provides contract support for acquisition programs
while ensuring responsible stewardship of taxpayers’ funds.  It awarded nearly
190,000 contracts in fiscal year 2013 valued at more than $61 billion. ACC officials
awarded the T700 TELSS engine contract, W58RGZ-12-D-0015, in 2012.


U.S. Army Aviation and Missile Life Cycle Management
Command
The U.S. Army Aviation and Missile Life Cycle Management Command (AMCOM) is
another subordinate command reporting to the U.S. Army Materiel Command. As a
Life Cycle Management Command, AMCOM provides integrated engineering, logistics,
and contracting to more than 90 major systems and manages two Army depots:
Corpus Christi Army Depot (CCAD), Texas and Letterkenny Army Depot, Pennsylvania.
AMCOM supports the development, acquisition, and fielding of aviation and missile
systems, which includes the T700 family of engines. For the T700 engine, AMCOM
develops workload forecasts for depot-level repairs and monitors engine performance.



                                                                                     DODIG-2014-113 │ 1
Introduction



                 Corpus Christi Army Depot
                 CCAD repairs and overhauls helicopters, engines, and components for Army Aviation.
                 The T700 family of engines are repaired and overhauled at CCAD. In 2005, CCAD
                 began working with GE under a partnership agreement to support the repair of
                 T700 engines. A partnership agreement is a cooperative arrangement between an
                 organic product-support provider (depot) and one or more private-sector entities (GE)
                 to perform defense-related work using DoD facilities and equipment.


                 T700 Technical, Engineering, and Logistical Services and
                 Supplies Contract
                 In January 2012, ACC officials at Redstone Arsenal, Alabama awarded the T700 TELSS
                 contract W58RGZ-12-D-0015, a follow-on, 5-year requirements (base and four ordering
                 periods) partnership contract, to GE to support CCAD’s repair of Army and Navy T700
                 engines.         The contract required GE to provide minimal technical and engineering
                 support to CCAD and provide 100 percent of the parts used in the overhaul and
                 repair of the T700 family of engines. The total maximum value of this 5-year contract
                 is approximately $937.9 million. There are three contract line item numbers (CLINs)
                 used to procure parts:                  Department of the Army parts, Department of the Navy
                 parts, and Over and Above1 parts. As of July 2014, ACC has obligated approximately
                 $500.8 million on this contract.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating as
                 intended and to evaluate the effectiveness of the controls. We identified an internal
                 control weakness associated with AMCOM and ACC’s obligation of funds on the
                 T700 TELSS contract. Specifically, AMCOM officials did not support their estimate
                 with a historical analysis of actual costs, as required by Federal and DoD procurement
                 regulations, for anticipated future work to determine whether an obligation
                 should be recorded. We will provide a copy of the final report to the senior official
                 responsible for internal controls in the Department of the Army.

                 	1	
                       Defense Federal Acquisition Regulation Supplement 252.217-7028, “Over and Above Work,” December 2012 allows the
                       use of an over and above work contract line item. Defense Federal Acquisition Regulation Supplement and Procedures,
                       Guidance, and Information, 217.7701, “Over and Above Work,” states that to the maximum extent practical, over and
                       above work shall be negotiated prior to performance of the work. For the T700 TELSS contract, the over and above
                       contract line item is used to acquire additional parts that are needed due to changes in the number of times the part needs
                       to be replaced, parts becoming obsolete, or other unforeseen changes. It must be limited to urgent material needs that
                       the contractor can support/deliver in time of need and prior to the contract period of performance expiration. Over and
                       above work is referred throughout the report as anticipated future work.




2 │ DODIG-2014-113
                                                                                                                                   Finding




Finding
Inappropriate Obligation of Funds on the
T700 Engine Contract
AMCOM and ACC officials inappropriately obligated funds2 for work that is added
to the total value of the contract for anticipated future work on the T700 TELSS
contract. This occurred because AMCOM officials did not support their estimate with
a historical analysis of actual costs, as required by Federal and DoD procurement
regulations, for anticipated future work to determine whether an obligation should
be recorded.            As a result, $6 million was not available for other higher priority
maintenance and repair needs.

	2	
      Inappropriate obligation of funds only applies to the anticipated future work as identified in Footnote 1 as over
      and above work.	




Funds for Anticipated Future Work Were Obligated
Without a Specific and Defined Need
AMCOM and ACC officials inappropriately obligated funds for anticipated future work
on the T700 TELSS contract. ACC officials obligated funds before the existence of a
specific, definite need and without the development of an estimate for anticipated
future work. For example, ACC officials established a delivery order each year for
anticipated future work and obligated $2 million for material AMCOM anticipated
it might purchase from the contractor during the contract year. ACC officials then
issued a contract modification at a later date that would authorize the contractor
to procure specified parts against the CLIN. From 2012 through 2014, ACC officials
obligated a total of $6 million on three anticipated future work delivery orders.
ACC officials plan to obligate an additional $4 million over the next 2 years until the
contract expires. The table below identifies the delivery order and associated obligated
and expended amounts for anticipated future work.




                                                                                                                          DODIG-2014-113 │ 3
Finding



                 Table. Anticipated Future Work Delivery Orders
                                                                                                         Total                Total Amount
                     Delivery Order            Total Obligated           Total Expended               Deobligated            Not Expended or
                        Number                    Amount                    Amount                     Amount                  Deobligated
                            0003                  $2,000,000                   $524,380                $1,475,620                           $0
                 										
                            0007                    2,000,000                 1,472,212                            0                 527,788 3
                            0010                    2,000,000                 1,097,836                            0                 902,164
                     Total                        $6,000,000                $3,094,428                $1,475,620                 $1,429,952


                 Estimate Used Without the Required Historical Analysis
                 AMCOM officials did not support the annual $2 million estimate for anticipated future
                 work with a historical analysis of actual costs to determine whether an obligation
                 should be recorded.                 The 31 United States Code, Section 1501 (a)(1), states that
                 obligations should only be recorded when there is a legally binding agreement for the
                 payment of specific goods and services which occurs when an agency places an order
                 or signs a contract. Additionally, DoD Financial Management Regulation volume 3,
                 chapter 8, states that obligations should not be recorded until there is documentary
                 evidence to support the transaction.  This evidence could include a best estimate;
                 however, the estimate should be based on a thorough analysis of the transaction
                 that occurred.  Without a specific definite need, the DoD Financial Management
                 Regulation requires the commitment of funds for an estimated
                 amount          of     additional         obligations         that      probably         will                 The
                 materialize.          AMCOM officials stated that the $2 million                                          $2 million
                 for anticipated future work was based on a “best-guess”                                                for anticipated
                                                                                                                          future work
                 estimate used during the first T700 engine partnership
                                                                                                                        was based on a
                 agreement awarded in 2000.                         AMCOM officials did not                              “best-guess”
                 update, document, or perform an analysis over the past                                                     estimate.
                 14 years since the original estimate was made to support
                 the annual $2 million obligation for anticipated future work.

                 ACC officials should deobligate funds that were inappropriately obligated for 
                 anticipated future work on the T700 TELSS contract, W58RGZ-12-D-0015. AMCOM
                 officials should record funds for the anticipated future work in accordance with
                 U.S. Code and DoD regulations. AMCOM officials should complete and document an
                 estimate based on a historical analysis of actual costs expended for anticipated future
                 work to support an obligation of funds. In the absence of a best estimate based on
                 a historical analysis, AMCOM officials should only commit the funds.

                 	3	
                       On July 8, 2014, ACC officials stated that they had initiated the process to deobligate the $527,788 identified on
                       delivery order 0007.



4 │ DODIG-2014-113
                                                                                                 Finding



Conclusion
ACC officials’ inappropriate obligation of anticipated future funds, totaling $6 million,
prohibited the U.S. Army Materiel Command from identifying the available funds
that could have been used for higher priority Army maintenance and repair needs.
For example, ACC officials did not expend or deobligate approximately $1.4 million
of the $6 million obligated for the anticipated future work. The $1.4 million could
become available for ongoing or projected Army repair needs if deobligated.
A documented description of the products or services to be provided and a thorough
analysis of the estimated costs should be completed prior to the obligation of funds
for anticipated future work.


Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Commanding General, U.S. Army Contracting Command
require contracting officials to deobligate funds that have been inappropriately
obligated for anticipated future work on the current Technical, Engineering,
and Logistical Services and Supplies contract.


Department of the Army Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command,
responding for the Commanding General, ACC, agreed, stating that the unexpended
funds on two delivery orders, totaling $1,307,842.15, will be deobligated by
August 29, 2014.


Our Response
The response from the Executive Deputy addressed all specifics of the recommendation,
and no further comments are required.




                                                                                        DODIG-2014-113 │ 5
Finding



                 Recommendation 2
                 We recommend that the Commanding General, U.S. Army Aviation and Missile Life
                 Cycle Management Command require officials to record funds for the anticipated
                 future work in accordance with U.S. Code and DoD regulations. Either:

                         •	 U.S. Army Aviation and Missile Life Cycle Management Command
                            officials should complete and document an estimate based on a
                            historical analysis of actual costs expended for anticipated future
                            work to support an obligation of funds, or

                         •	 In the absence of a best estimate based on a historical analysis, U.S.
                            Army Aviation and Missile Life Cycle Management Command officials
                            should only commit the funds.

                 Department of the Army Comments
                 The Executive Deputy to the Commanding General, U.S. Army Materiel Command,
                 responding for the Commanding General, AMCOM, agreed, stating that the AMCOM
                 Logistics Center and CCAD officials completed a historical analysis to support 2014
                 anticipated future requirements.   AMCOM Logistics Center and CCAD officials will
                 calculate and provide the anticipated future requirements to ACC each contract year
                 beginning with the 2015 option year.


                 Our Response
                 The response from the Executive Deputy addressed all specifics of the recommendation,
                 and no further comments are required.




6 │ DODIG-2014-113
                                                                                                 Appendix




Appendix
Scope and Methodology
We conducted this performance audit from February 2014 through July 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

This is the first report in a series of two reports on the T700 engine. The scope of
this report focused on the obligation of funds for anticipated future work on the
Department of Army’s T700 TELSS contract.  Contract W58RGZ-12-D-0015 was
awarded on January 1, 2012, for an initial amount of approximately $937.9 million.

To accomplish the audit objective, we:

        •	 contacted officials from the following offices to understand their roles and
           responsibilities with the obligation of funds on the T700 TELSS contract:

                  {{   Office of the Under Secretary of Defense for Acquisition, Technology,
                       and Logistics, Defense Procurement and Acquisition Policy

                  {{   AMCOM

                  {{   ACC

                  {{   CCAD

                  {{   Defense Contract Management Agency

                  {{   Defense Logistics Agency

                  {{   GE

        •	 reviewed applicable regulations including 31 United States Code,
           Section  1501;  the  Defense  Federal  Acquisition  Regulation 
           Supplement        252.217-7028;    and    the   DoD    Financial   Management
           Regulation, volume 3, chapter 8. These laws and regulations were reviewed
           to determine when obligations for anticipated future work should be
           recorded and for what amount.




                                                                                           DODIG-2014-113 │ 7
Appendix



                          •	 reviewed the T700 TELSS contract files and obtained data from the
                            Logistics Modernization Program (LMP) to determine the amount and
                            when funds were obligated and expended on the over and above CLIN.
                            We also interviewed contracting and program officials to determine the
                            obligation and deobligation processes for the T700 TELSS contract.

                 Use of Computer-Processed Data
                 We relied on computer-processed data from the Electronic Data Access (EDA)
                 system and the Army LMP system. EDA stores contracts, contract delivery orders,
                 and contract modifications.    The Army uses LMP to integrate business processes
                 including order entry, distribution, materiel management, inventory, and financial
                 information management.

                 We obtained T700 TELSS contract, order, and modification documentation from
                 EDA. We compared the contracts, orders, and modifications obtained from EDA to
                 the contracts, orders, and modifications in the ACC contract files and verified that
                 the documentation we obtained from EDA was accurate. In addition, we obtained
                 T700 TELSS contract obligation and expenditure data from LMP. We compared the
                 LMP obligation and expenditure data for anticipated future work to contract obligation
                 and expenditure data from EDA. We used the obligation and expenditure data to
                 determine the amount of funds that should be deobligated on the over and above
                 CLIN. As a result of our analysis, we determined that the information from EDA and
                 LMP was sufficiently reliable for the purposes of our audit.


                 Prior Coverage
                 During the last 5 years, the Department of Defense Inspector General (DoD IG) has
                 issued one report related to the obligation of funds for anticipated future work.
                 Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.


                 DoD IG
                 Report No. D-2009-025, “Obligation of Funds for Ship Maintenance and Repair at the
                 U.S. Pacific Fleet Maintenance Activities,” November 26, 2008




8 │ DODIG-2014-113
                         Management Comments




Management Comments
Department of the Army




                               DODIG-2014-113 │ 9
Management Comments



                 Department of the Army (cont’d)




10 │ DODIG-2014-113
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-113 │ 11
Management Comments



                 Department of the Army (cont’d)




12 │ DODIG-2014-113
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-113 │ 13
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                          ACC U.S. Army Contracting Command
                      AMCOM U.S. Army Aviation and Missile Life Cycle Management Command
                        CCAD Corpus Christi Army Depot
                         CLIN Contract Line Item Number
                         EDA Electronic Data Access
                           GE General Electric
                         LMP Logistics Modernization Program
                        TELSS Technical, Engineering, and Logistical Services and Supplies




14 │ DODIG-2014-113
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
